ARMED FORCES BANK N.A. SECURED CREDIT CARD
ACCOUNT-OPENING DISCLOSURE STATEMENT

Interest Rates and Interest Charges
ANNUAL PERCENTAGE
RATE (APR) for all Purchase
This APR will vary with the market based on the Prime Rate.1
Transactions
APR for Balance Transfers
20.99%
This APR will vary with the market based on the Prime Rate. 1
APR for Cash Advances
20.99%
This APR will vary with the market based on the Prime Rate.1
Penalty
24.99%
This APR may be applied to your account if you Fail to make OR satisfy the required minimum
monthly payment within 60 days of the respective due date.

20.99%

Paying Interest
For Credit Card Tips from the
Consumer Financial Protection
Bureau

How Long Will the Penalty APR Apply? : If your APR is increased for either reason, the Penalty
APR will apply until you make six consecutive minimum payments when due. If you do not make
these six consecutive minimum payments, we may keep the Penalty APR on your account
indefinitely.
Each due date will be at least 25 days after the close of each billing cycle. We will not impose
interest charges on purchases or balance transfers if you pay your entire balance in full by the
due date each month. We will begin charging interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

Transaction fees
• Cash Advance Fee
• Currency Conversion
Transaction Fee
• International Transaction Fee
• Balance Transfer Fee
Penalty Fees
• Late Payment Fee
• Over the Limit Fee
• Returned Payment Fee
Other fees
• Copying Fee
• Card Replacement Fee
• Special Processing Fee

$39.00
NOTICE: Your account will be assessed the $39.00 fee at the time that your account is established
with us. This fee will reduce the amount of credit that you initially have available. Additionally, your
account will be charged every year on the anniversary date of your account.
$5.00 or 2% of amount advanced, whichever is greater
1.0% of each transaction in U.S. dollars if currency conversion occurs.
0.8% of each transaction in U.S. dollars if no currency conversion occurs.
None
Up to $25.00
None
Up to $25.00
$4.00 per-page fee for copies of transaction documents or statements unless we are required to
provide them when resolving a billing dispute.
$5.00 per card replaced prior to the normal reissue date.
$35.00 per card for expedited processing and delivery, if available and offered.

How We Will Calculate Your Balance: We use the method called “average daily balance (including new purchases and balance
transfers).” See your Card Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the Card Agreement.
The disclosures above are accurate as of the printing date of December 25, 2020 and are subject to change thereafter.
Please contact us for any information on any changes, call 888-929-2265 or by writing us at the following
address:
Armed Forces Bank, N.A.
Attn: Credit Card Department
PO Box 26458
Kansas City MO, 64196

1

Variable Rate Information: Prime Rate refers to the highest Prime Rate identified in the “Money Rates” column of the Wall Street Journal (WSJ) on the rate change date. The
index and your corresponding rate APR may adjust monthly on the rate change date. The new rate will take effect on the first day of your next billing cycle. The value of the index
on December 25, 2020 was 3.25%. The APR will be determined by adding the margin of 17.74% to the value of the index. Your APR may change monthly.
2

Revised as of 1-01-2021

ARMED FORCES BANK, N.A. SECURED CREDIT CARD AGREEMENT

Thank you for opening a card account with us. This Armed Forces Bank, N.A. Secured Credit Card Agreement (“Agreement”) and the related documents contain the terms
that govern our issuance, and your use, of the card. Please read this Agreement and related documents carefully and keep them for future reference. Images of any of these
documents can be used instead of the original.
1.
In General.
(a)
Some Definitions. The meanings of the terms you see in italics appear in Section 5(d). We will also use the following personal pronouns throughout
this Agreement:
(i)
“You,” “your” and “yourself” mean each applicant and co-applicant for the account; any person responsible for paying the account; and anyone else you
authorize to use, access, or service the account.
(ii)
“We,” “us,” “our,” “AFB,” and “Armed Forces” mean Armed Forces Bank, National Association, and its agents, authorized representatives,
successors, and assignees.
(b)
Account Information.
(i)
We need information about you to manage your account. The information we need includes:
(A)
your legal name;
(B)
a valid U.S. mailing address and residential address (if different);
(C)
your date of birth;
(D)
your social security number or other government identification number;
(E)
your telephone number(s); and
(F)
your employment and income information.
(ii)
You must tell us when this information changes. Please update your address in the manner provided on your statement. You may also update some of
this information by logging onto your account on our website or by calling one of our representatives at the telephone number provided on your statement
or on the back of the card. We may require you to provide additional documents that are acceptable to us to verify this information or any changes. We
maintain the right to restrict or close your account if your information cannot be verified or if you do not provide additional information as requested.
(c)
Credit Limits.
(i)
On or about the date you received this Agreement, we notified you in writing of your credit limit, which will also appear on your statements.
(ii)
Your maximum approved credit limit will be not less than $300.00, nor more than $3,000.00. Under no circumstance will your credit limit be more
than the balance of your savings account described in Section 3(m)(i).
(iii)
You are responsible for keeping track of your account balances and your available credit limit. You agree not to use your card to attempt to obtain credit
in excess of your credit limit. We may still honor transactions above your credit limit, but our honoring of these transactions will not increase your credit limit
and is at our sole discretion.
(iv)
We may also increase, decrease, restrict, or cancel your credit limit at any time, subject to applicable law. This will not affect your obligation to pay the
indebtedness as required by this Agreement. If we change your credit limit, we will notify you in the manner required by applicable law.
(v)
You have the ability to increase the credit limit of your card by adding additional amounts to the savings account in increments of $50.00 or more, up to
the maximum credit limit of $3,000.00 by increasing the balance in your savings account.
(d)
Collateral Pledge.
(i)
You will be required to give us a lien (security interest) on your Credit Builder Savings account.
(ii)
Our approval of your application is deemed to be your authorization to us to withdraw funds from the demand deposit (checking) account (“DDA”)
identified in the application or use other provided funds to open a savings account in your name for the amount of the credit that you requested in your
application. At the same time, we inform you of your approved credit limit, we will make available all agreements and disclosures applicable to the
Credit Builder Savings account that we are required to provide to you under applicable law. The savings account will accrue and pay interest at the rate
and Annual Percentage Yield that are in effect for our Credit Builder Savings account.
(iii)
Whether you are or are not a customer on the date you submit the application, you may satisfy the collateral pledge requirement by granting a security
interest in a savings account issued on or before the application date. You assign and grant to us, for valuable consideration, a security interest in the savings
account, effective on the date you first use the card to initiate a transaction, to secure your obligation to pay the indebtedness, but only if we approve
your application.
(e)
Acceptance of this Agreement and Changes to this Agreement.
(i)
We issued card(s) to you as identified in the application. All issued card(s) were sent to you at the address you provided in your application. You will be
deemed to have accepted and agreed to this Agreement on the day you first use the card to initiate a transaction after you first receive the card.
(ii)
You will be deemed to have accepted changes to this Agreement and the related documents the first time you use the card to initiate a transaction after a
change is effective.
2.
Your Account Use Agreements.
(a)
Using Your Account.
(i)
You promise to follow the terms of this Agreement as long as your account remains open or has a balance due. Please sign the card immediately when
you receive it. The card is valid during the dates provided on the front. We will release our security interest in the savings account as stated in Section
3(m)(iv)). Prior to the expiration date of the initial card we issued in response to your application, we will review your credit report (per Section 4(g)(ii))
and decide whether you may qualify for unsecured credit. If you do, we will notify you to that effect. If you respond positively to our notification, we
will establish a new unsecured card account with an appropriate credit limit and issue card(s) to you. If you do not qualify for unsecured credit, we
may issue replacement cards(s) unless you tell us otherwise. In any event, your account will continue to be secured by the savings account for as long as
you are obliged to pay your indebtedness.
(ii)
The card is our property, and you will return it to us or destroy it if we ask.
(iii)
You will take reasonable steps to prevent the unauthorized use of the card.
(iv)
We are not responsible if anyone refuses to accept the card for any reason. Also, we may reject any transaction for any reason. We may limit the type,
number, or aggregate dollar amount of transactions you are permitted to initiate in a day, week, or billing cycle for security reasons. If we impose such
limits, you agree that we will not be liable to you if we do not authorize or process transactions in excess of those limits. Unless we tell you otherwise,
we will bill each transaction to your account and apply it against your available credit limit for each billing cycle.
(v)
Unless we agree, you may not use a transfer to transfer amounts from other accounts with us or any of our affiliates.
(vi)
You must not use, or try to use, the card for any Internet gambling transactions or transactions that are illegal or not permitted by us. You will still be
responsible for all indebtedness arising from such transactions if you do, and they will be subject to this Agreement. You might have to reimburse the
network and us for all damages and expenses.

3

Revised as of 1-01-2021

(vii)

3.

You must not use, or try to use, the card for any transactions, such as securing or paying for rental car usage, as that is not permitted by us. You will
still be responsible for all indebtedness arising from such transactions if you do, and they will be subject to this Agreement. You might have to
reimburse the network and us for all damages and expenses.
(viii) You agree that you will not use your card if we or you have suspended or canceled the card or account; after you have reported the card lost or
stolen;
after you file a petition for bankruptcy; or if you do not honestly expect to be able to pay your indebtedness in full.
(ix)
From time to time, due to circumstances beyond our control (such as system failures, fires, floods, natural disasters or other unpredictable
events), our services might be unavailable. When this happens, you might be unable to use the card or obtain information about your account. We
will not be responsible or liable if this happens.
(b)
Transactions Made in Foreign Currencies.
(i)
A currency conversion transaction fee in the amount set forth in the Disclosure Statement will be assessed on all transactions where the merchant country
differs from the card issuer’s country. The converted transaction amount will be shown separately from the international transaction fee on your
statement.
(ii)
An international transaction fee in the amount set forth in the Disclosure Statement will be assessed on foreign transactions where a currency conversion
is not performed.
(c)
No Warranties. Except as otherwise provided in the “Billing Rights Summary” part of your statements (see Section 3(i)), we are not responsible for
any claim you might have regarding the purchases of goods or services made with the card.
(d)
Merchant Refunds. If you are entitled to a refund for goods or services purchased with the card, you will accept these refunds as credits to your
account. We do not control when a merchant sends us your refund. We will also have a reasonable amount of time after we receive your refund to
process it.
(e)
Using a PIN.
(i)
We may give you a PIN. For security reasons, you might have to provide the PIN before you are able to complete some transactions using the card.
(ii)
With a PIN, you may use the card to obtain cash from certain ATMs or make purchases at certain merchant POSs. You may do these things if the
ATM or POS requires entry of a PIN and displays the logo of the network on the card.
(iii)
You should keep your PIN secure and not write it down, give it to anyone, or keep it with the card. If you lose the card or believe that someone
has gained unauthorized access to your PIN, you must contact us immediately.
Your Payment Agreements.
(a)
Your Promise to Pay. You promise, individually and jointly, to pay us all amounts due on your account. This includes amounts where you did not
sign a purchase slip or other documents for the transaction. If you use the card number without presenting the physical card (such as for mail, telephone
or Internet purchases), this will be treated the same way as if you presented the card. If you let someone else use the card, you are responsible for all
transactions that person makes. If you die, we will apply savings account funds to your indebtedness prior to making any surplus funds available to any other
person or your estate.
(b)
Making Payments. Your payments must be in U.S. dollars from a U.S. deposit account and otherwise be acceptable to us. We do not accept cash
payments through the mail. You may not make payments with funds from your account or any other credit account with us or any of our affiliates.
(c)
Interest Charges and Fees. We will charge interest charges and fees to your account as disclosed to you in the Disclosure Statement and your statements.

(i)

(ii)

(d)

(iii)
(iv)
(i)
(ii)

(iii)
(e)

(i)
(ii)

Interest Charges. In general, interest charges begin to accrue from the day a transaction occurs.

(a) We will not assess interest charges on any new purchases or balance transfers posted to your account provided you have paid your previous balance
in full by its due date.
(b) Interest charges will begin accruing on the date of the transaction for all cash advances. There is no grace period to avoid paying interest on these
transactions.
(c) The back of the statement provides a detailed explanation for calculating your interest charges.
Fees. The following fees apply to your account only if they are provided in the Disclosure Statement.
(A) Annual Fee. We may charge this fee upon the opening of your card account and each anniversary of your card issue date.
(B) Balance Transfer Fee. We will charge this fee each time you request us to transfer a balance from another institution to your card account.
(C) Card Replacement Fee. We may charge this fee if we issue a replacement card at your request prior to the card’s normal reissue date.
(D) Cash Advance Fee. We may charge this fee each time you obtain a cash advance.
(E) Copying Fee. We may charge a per-page fee for copies of transaction documents or statements unless they are required when resolving a
billing dispute.
(F) Currency Conversion Fee. We may charge this fee under the circumstances described in Section 2(b)(i).
(G) International Transaction Fee. We may charge this fee under the circumstances described in Section 2(b)(ii).
(H) Late Payment Fee. We will charge this fee if by 10 days after your scheduled payment due date, we have not received your minimum payment.
(I) Over the limit means exceeding your credit limit by more than $0.01.
(J) Returned Payment Fee. We may charge this fee each time any payment you make to us is not paid by your financial institution for any
reason, even if your institution later pays it.
(K) Special Processing Fee. We may charge this fee if you request that your account have expedited processing and expedited delivery of your
card to you, if available and offered.
We will not charge both a late payment fee and a returned payment fee in the same billing cycle.
We may increase your interest charges and fees as described in Section 4(j) or in the related documents.
Minimum Payment.
Your statement will provide instructions for making payments, including the amounts due and the due date. If applicable, your statement will also
provide a minimum payment amount. To avoid a late payment fee, your minimum payment must be received by us no later than 10 days after your
scheduled payment due date.
In addition to the minimum payment, you may pay all or part of the balance on your account. However, you must still pay at least the minimum
payment amount each month, even if you paid more than the minimum on the previous statement. We will continue to charge interest charges during
billing cycles when you carry a balance regardless of whether your statement includes a minimum payment. If your account is 60 days past due the entire
balance is immediately due and payable.
Payments will be applied in the following order: (A) interest charges; (B) previous cash advances (including transfers); (C) previous purchases; (D) current
cash advances (including transfers); and finally, to (E) current purchases.
Index; Periodic Rate.
The index is the highest Prime Rate published in the “Money Rates” column of The Wall Street Journal ("WSJ").
We may adjust the index monthly using the Prime Rate published in the WSJ on the 25th day of each month, or the day immediately preceding
those dates on which the WSJ is published if the WSJ does not publish a Prime Rate on the 25th day of a month. The new rate will take effect
on the first day of your next billing cycle. The WSJ Prime Rate in effect on December 25, 2020 was 3.25%. The APR will be determined by
APR may change monthly.
adding the margin of 17.74% to the value of the index. Your
4

Revised as of 1-01-2021

Penalty Rate. If your minimum payment is not received within 60 days of the payment due date, your entire account balance is subject to the penalty
rate of 24.99% APR. The Penalty APR will remain in place until you make six (6) consecutive minimum monthly payments when due, as indicated
on your monthly account statement. After six (6) consecutive payments, the APR will revert to the standard APR as shown on the Account Opening
Disclosure for Purchases, Balance Transfers, and Cash Advances. If you do not make these six (6) consecutive minimum payments, we may keep the
Penalty APR on your account indefinitely.
(g)
Variable Rates. How do you calculate variable rates?
(i)
We calculate variable rates by adding a margin to the value of the index. Therefore, variable interest rates may change when the value of the
changes. If the index value changes, your new interest rate (and corresponding APR) will take effect on your next billing cycle.
index
(ii)
What are the daily periodic rates used to calculate my interest? The daily periodic rate for all transactions is 0.0575%.
(iii)
How is the interest charge applied? Subject to your right to pay the “New Balance” in full by the due date without incurring interest charges, interest charges
accrue from the transaction date, the date the transaction is posted to your account, or the first calendar day of the billing cycle, as applicable. Interest
charges accrue on the unpaid amount until it is paid in full. This means you may owe interest charges even if you pay the entire “New Balance” one
month but did not do so for the previous month.
(iv)
How do you calculate interest charges? We calculate your total interest charge by multiplying your average daily balance by the daily periodic rate and multiplying the result by the number of days in the billing cycle. Due to rounding or a minimum interest charge, this calculation may vary slightly from the interest
charge actually assessed.
(v)
We determine your daily periodic rate by dividing the corresponding APR by 365 and rounding to the nearest 1/1,000 of 1%, not to exceed the maximum
allowed by applicable law. If the daily periodic rate and corresponding APR increase, the interest charge will increase, and your minimum payment may be more.
(vi)
To determine your average daily balance, add the daily balances together and divide the sum by the number of days in the billing cycle.
(vii) To determine your daily balance, take the beginning balance and add in new transactions and the periodic interest charge on the previous day’s balance, then
subtract any payments and credits as of that day. However, if you paid your previous month’s balance in full (or if your balance was zero or a credit
amount), new transactions are not added to the daily balances as long as the “New Balance” is paid in full by the due date.
(h)
Notice of Unauthorized Use. If the card is lost or stolen, or if you think someone is using the card without your permission, notify us immediately,
orally AND in writing, at:
Armed Forces Bank, N.A.
c/o Credit Card Processing
Post Office Box 26458
Kansas City, Missouri 64196-6458
Toll Free: 1.888.929.2265
You may be liable for the unauthorized use of the card that occurs before you notify us of such use. Your liability will not exceed $50.00 or the amount of money,
property, labor, or obtained by unauthorized use before you notify us, whichever is less. You will not be liable for unauthorized use that occurs after you notify us
and we have a reasonable opportunity to act on such notice. In no event shall we be obligated to reissue a lost or stolen card. You agree that we may monitor
and/or record all telephone communications between you and us.
(i)
Zero Liability Policy. As a VISA® cardholder, you have certain rights under VISA’s Zero Liability program. For details, see
http://usa.visa.com/personal/security/visa_security_program/zero_liability.html.
(j)
Disputed Transactions.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
(i)
What to Do If You Find a Mistake On Your Statement
(A) If you think there is an error on your statement, write to us at:
Armed Forces Bank, N.A.
c/o Credit Card Processing
Post Office Box 26458
Kansas City, Missouri 64196-6458
(B)
In your letter, give us the following information:
(1) Account Information: Your name and account number.
(2) Dollar Amount: The dollar amount of the suspected error.
(3) Description of the Problem: If you think there is an error on your statement, describe what you believe is wrong and why you believe
it is a mistake.
(C)
You must contact us:
(1) Within 60 days after the error appeared on your statement.
(2) At least three business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
(3) You must notify us of any potential errors in writing. You may call us, but if you do, we are not required to investigate any potential
errors and you may have to pay us the amount in question.
(ii)
What Will Happen After We Receive Your Letter
(A)
When we receive your letter, we must do two things:
(1)
Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
(2) Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the statement is correct.
(B)
While we investigate whether or not there has been an error:
(1) We cannot try to collect the amount in question or report you as delinquent on that amount.
(2) The charge in question may remain on your statement, and we may continue to assess interest charges on that amount.
(3) While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
(4) We can apply any unpaid amount against your credit limit.
(C)
After we finish our investigation, one of two things will happen:
(1) If we made a mistake: You will not have to pay the amount in question, or any interest charges or other fees related to that amount.
(2) If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest charges and
fees. We will send you written notice of the amount you owe, and the date payment is due. We may then report you as delinquent if you
do not pay the amount, we think you owe.
(D)
If you receive our explanation but still believe your statement is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your statement. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.
(f)

5

Revised as of 1-01-2021

(iii)

4.

(E)
If we do not follow the rules above, you do not have to pay the first $50.00 of the amount you question even if your statement is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
(A)
If you are dissatisfied with the goods or services that you have purchased with the card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
(B)
To use this right, all of the following must be true:
(1) The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must
have been more than $50.00. (Note: Neither of these are necessary if your purchase was based on an advertisement, we mailed to you,
or if we own the company that sold you the goods or services.)
(2) You must have used your card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your
account do not qualify.
(3) You must not yet have fully paid for the purchase.
(C)
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Armed Forces Bank, N.A.
c/o Credit Card Processing
Post Office Box 26458
Kansas City, Missouri 64196-6458
(D)
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
(k)
Other Consequences of a Dispute. If you dispute a transaction made by you or someone else on your account, and we later credit your account for
all or part of the disputed amount, you give us all of your rights against that other person. In addition, you will:
(i)
give us any merchandise or other purchases you received in connection with the disputed amount if we ask;
(ii)
not pursue any claim or reimbursement from the merchant and that other person; and
(iii)
help us pursue and get reimbursement from the merchant and that other person.
Your help includes giving us documents that we ask for and that are acceptable to us.
(l)
Mailed Payments.
(i)
You must mail payments to us at the address provided on your statement or as otherwise instructed by us. We will credit each payment to your
account on the day we receive it if:
(A) you send the payment coupon included with your statement in the same envelope with your payment;
(B) you include your account number on your payment item; and
(C) your payment arrives at the address indicated on the payment coupon by the cutoff time.
(ii)
Unless otherwise specified in Section 3(j)(i), and except as limited by applicable law, payments that conform to the requirements of Section 3(l)(i)
will be credited to your account if we receive them by the cutoff time. If we receive any payment after the cutoff time, we will apply it the next business
day except when a delay does not result in a finance or other charge. If the due date falls on a weekend or holiday, or a day on which we do not
receive or accept payments, then we will treat any payment received by us at the correct address by the cutoff time on the next business day as if we
received it by the cutoff time on the due date. We will not impose a separate fee for you to make payments unless the applicable payment method
involves an expedited (that is same day or next day) delivery service.
(iii) We may accept payments that do not conform to the requirements set forth in this Section 3(l), and if we do so, we will apply them to
your account not later than five days after we receive them.
(m)
Security Agreement.
(i)
Pledge and Grant of Security Interest. For valuable consideration, you assign and grant to us a security interest in the Credit Builder savings account,
to secure your obligation to pay the indebtedness.
(ii)
Default. If an event of default occurs and remains uncured for a period of not less than 60 days after a due date, you authorize us to apply savings
account funds to reduce the indebtedness to $0.00. We are not required to send you any additional notice or demand for payment. The rights described
in this Section 3(m)(ii) are in addition to all other rights we have under the Agreement or applicable law.
(iii)
Application of Funds to the Account. If any indebtedness remains unpaid, you will still be responsible for the repayment of that amount, and we may
continue to report your account delinquent as applicable. If your account becomes subject to bankruptcy proceedings, we will treat the savings account
as required by that process. We may, at our discretion, unsecure your account at any time by releasing our lien interest in the savings account.
(iv)
Release of Security Interest in Savings Account. We will release our security interest in your savings account when we or you cancel or terminate your
account, but only after applying savings account funds to your indebtedness.
(v)
Legal Proceedings; Disputes. You represent that there are no current lawsuits or bankruptcy proceedings that might affect our interest in the savings
account. You have not and will not attempt to transfer any interest in the savings account to any person or offer the savings account as security for
obligations other than the indebtedness. If your account or the savings account become involved or are likely to become involved in a legal proceeding,
you understand that the entire balance of the savings account may be restricted until the matter is resolved.
(vi)
Escheat. You understand that the savings account may be subject to applicable law with respect to escheat of dormant funds, as set forth in the related
documents.
Our Account Servicing Agreements.
(a)
Statements. We will send you one statement for all cards issued with respect to your account per billing cycle unless applicable law does not require or
permit us to send only one statement. Statements will be sent at the end of each billing cycle when your account has a debit or credit balance of more
than $1.00, or if we have charged any interest charges to your account. Your statement will show all transactions billed to your account during the billing cycle
along with other important account information.
(b)
Payment Processing.
(i)
We may accept and process payments without losing any of our rights. Even if we apply your payment to your account, we may delay the availability
of credit until we confirm that your payment has cleared. We may resubmit and electronically collect returned payments. We may also adjust your
account as necessary to correct errors, to process returned and reversed payments, and to handle similar issues.
(ii)
When you provide an item as payment you authorize us either to use information from your item to make a one-time electronic fund transfer
from your deposit account or to process the payment as an item. We will provide additional information about this process on your statement or
other documents we send you before your payment. You may contact us and ask that we not process your future items in this way.
(iii)
When you provide an item as payment, it might also be converted into an electronic image and collected and returned electronically. These
electronic images may also be converted to substitute checks. We will not be responsible if an item you provide has physical features that when
imaged result in it not being processed as you intended.
6

Revised as of 1-01-2021

(c)

(d)

(e)

(i)

(ii)
(iii)

(iv)

(f)

(i)

(ii)

(g)

(iii)
(i)
(ii)

(h)

(i)
(ii)
(iii)

(i)
(j)

(i)

(ii)

Items with Restrictive Words, Conditions or Instructions. All items that have restrictive words, conditions, limitations, or special instructions added
(including items marked with the words “Paid in Full” or similar language) and all accompanying communications must be mailed to and received
at the address in your most recent statement. If you make your payment or send any accompanying communications to any other address, we may
accept and process the payment without losing any of our rights.
Credit Balances. We may reject and return to you any payment that creates a credit balance on your account. If we allow you to create a credit balance,
such balance will not be available until we confirm that your payment has cleared. We may reduce the amount of a credit balance by any new
transactions posted to your account. You may contact us in writing as provided on your statement and request a refund of an available credit balance.
We will re- fund your credit balance not later than seven business days after we receive your written request.
Account Default.
We may consider you in default under this Agreement if:
(A) you do not make a payment by its due date;
(B) any payment you make is rejected, not paid, or cannot be processed;
(C) you exceed your credit limit;
(D) a bankruptcy or other insolvency proceeding is filed by or against you;
(E) you die or are legally declared incompetent or incapacitated;
(F) we determine that you made a false, incomplete, or misleading statement on any of your account documentation, or you otherwise
tried to defraud us;
(G) you do not comply with any term of this Agreement, the related documents, or any other agreement with us; or
(H) you permanently reside outside the United States.
If your account is in default, we may charge the late payment fee set forth in Section 3(c)(ii) and the Disclosure Statement.
Paying the fees charged in connection with a default will not by itself cure the default. In addition, if you are in default, we may take the following
actions without notifying you, unless we are required to do so by applicable law:
(A) close or suspend your account;
(B) lower your credit limit;
(C) increase your minimum payment;
(D) demand that you immediately pay the entire indebtedness (for example, as described in Section 3(d));
(E) continue to charge you interest charges and fees as long as any indebtedness remains outstanding; and/or
(F) pursue any other action against you that is permitted by applicable law, including the filing of a lawsuit against you.
You must pay us all of our collection expenses, attorneys’ fees, and court costs, unless applicable law does not allow us to collect these amounts.
Communications.
We may contact you from time to time regarding your account. We may contact you in any manner we choose unless prohibited by applicable law.
For example, we may:
(A) contact you by mail, telephone, cellular telephone, email. fax, recorded message, text message, or personal visit;
(B) contact you at your home and at your place of employment;
(C) contact you at any time, including weekends and holidays;
(D) contact you with any frequency;
(E) leave prerecorded and other messages on your answering machine/service and with others; and
(F) identify ourselves, your relationship with us, and our purpose for contacting you even if others might hear or read it.
Our contacts with you about your account are not unsolicited and might result from information we obtain from you or others. We may monitor
or record our conversations or other communication with you. Unless prohibited by applicable law, we may modify or suppress caller ID and similar
services and identify ourselves on these services in any manner we choose. When you give us, or we obtain, your mobile telephone number, we
may contact you at this number and can also leave prerecorded and other messages. We may do these things whether we contact you or you
contact us.
If you ask us to discuss your account with a person, you must provide us with documents that we ask for and that are acceptable to us.
Credit Reports.
We may provide information about you and the account to consumer (credit) reporting agencies and others as provided in the related documents.
Information we provide might appear on your credit reports. This could include negative information if you do not comply with the terms of this
Agreement.
We may obtain and use credit and income information about you from consumer (credit) reporting agencies and others as permitted by
applicable law.
Closing or Suspending Your Account.
You may ask us to close your account by writing us as described on your statement. Your statement will provide additional information about this
process, and we may also separately provide you with additional details after your request. This might include payment information. If you use the
card or charges post to your account after you ask us to close it, we may keep it open or re-open it.
We may close or suspend your account and your right to obtain credit from us. We may do this at any time and for any reason permitted by
applicable law, even if you are not in default. A suspension of your account might be permanent or temporary.
If your account is closed or suspended for any reason, you must stop using the card. You must also cancel all billing arrangements that access
the account. We will not do this for you. If we close or permanently suspend your account, you must also destroy all cards. You must still pay the
indebtedness in full, even if it includes transactions posted to your account after we close or suspend it.
New Offers. In the future, we might make new offers to you or forward offers from others that we think you might be interested in. These offers
may have new or different terms and documentation for these offers will be provided when we make you the offer. If you accept the offer, your
previously disclosed terms will still apply except as modified by the offer.
Changes to this Agreement.
At any time, we may add, delete, or change any term of this Agreement unless prohibited by applicable law. We will give you notice of any changes
as required by applicable law. If we do notify you of changes, we will send you a separate notice or inform you on your statement. We may send this
notice to you electronically as permitted by applicable law. Our notice will tell you when and how the changes will take effect and describe any rights
you have in connection with the changes.
Your variable Annual Percentage Rate (if applicable) can go up or down as the index goes up or down. If we increase your interest charges for any
other reason, we will notify you in writing. If we increase your fees or other terms of your account, we will notify you in writing and inform you of
your options in advance, including the right to opt out of some of these changes.

7

Revised as of 1-01-2021

5.

Miscellaneous.
(a)
The Law that Applies to this Agreement.
(i)
Our headquarters is in Kansas and this Agreement will be interpreted using Kansas law. Federal law will be used when it applies.
(ii)
You waive any applicable statute of limitations specified in applicable law. Otherwise, the applicable statute of limitations period for all provisions
and purposes under this Agreement (including the right to collect debt) will be the period provided by Kansas or the jurisdiction where you live,
whichever is longer.
(iii)
If any part of this Agreement is found to be unenforceable, the remaining parts will remain in effect.
(b)
Waiver. We will not lose any of our rights if we delay taking any action for any reason or if we do not notify you. For example, we may waive your
interest charges or fees without notifying you and without losing our right to charge them in the future. We may always enforce our rights later and may
take other actions not listed in this Agreement if permitted by applicable law. You do not have to receive notice from us of any waiver, delay, demand,
or dishonor. We may proceed against you before proceeding against any other person.
(c)
Assignment.
(i)
This Agreement will be binding on, and benefit, any of your and our successors and assigns.
(ii)
You may not transfer this account or this Agreement to any person without our written permission.
(iii)
We may transfer your account and this Agreement to any person without your permission and without prior notice to you. They will take our place
under this Agreement. You must pay them and perform all of your obligations to them and not us. If you pay us after you are informed or learn
that we have transferred your account or this Agreement, we can handle your payment in any way we think is reasonable and permitted by applicable
law. This includes returning the payment to you or forwarding the payment to the person to whom we transferred your account.
(d)

Glossary.
Account means the card account we have opened for you in response to your application.
Affiliates means all financial institutions owned by Dickinson Financial Corporation. As of the publication date of this Agreement, our affiliates are:
Academy Bank, N.A.
(A)
all disclosures and materials provided to you before or when you opened your account;
(B)
all documents we gave you when you opened the savings account;
(C)
all other documents and disclosures relating to your account including those provided online; and
(D)
all privacy notices describing our limitations on sharing information about you with others;
(E)
all statements;
(F)
any future documents describing changes we make to any of the above things.
(iii)
Applicable law means the laws, regulations, court decisions, administrative rulings and the like adopted by, or in effect from time to time within, the
State of Kansas and the United States of America.
(iv)
Application means the form you completed to apply for an account and card that contains the information described in Section 1(b).
(v)
ATM means an automated terminal machine provided by a financial institution or another person at which cards may be used as access devices to obtain
cash.
(vi)
Billing cycle means a period of time that might vary in length but is approximately 30 days in duration. The specific period of time is described on each
statement. However, you will have a billing cycle even if we are not required by applicable law to make a statement available to you. We will often specify a
billing cycle by the month in which its closing date occurs as provided on the statement. For example, a “March billing cycle” will have a closing date in
March. If we charge off your account balance, we may switch to quarterly billing cycles.
(vii) Business day means any day in which our offices are open for the processing of payments and transactions.
(viii) Card means each AFB credit card associated with your account and includes all renewals and substitutions of the initial card issued to you. Card also
means your account number, which you may use to initiate transactions without presenting the card itself.
(ix)
Cash advance means using the card to obtain cash or things we consider cash equivalents. Cash equivalents include wire transfers, travelers’ checks,
money orders, foreign currency, lottery tickets, gaming chips, and wagers.
(x)
Credit limit means the maximum outstanding indebtedness you may incur by use of the card, as disclosed to you in the related documents.
(xi)
Customer means a person who has an existing checking account that is open and in good standing at AFB prior to the first use of the card and at all
times while the account is open.
(xii) Cutoff time means 5:00 p.m. Central Time, Monday through Friday.
(xiii)
Disclosure Statement means the document titled “Secured Credit Card Account-Opening Disclosures” that you received when you submitted your
application.
(xiv) Due date means the date shown on each statement by which we must receive at least a minimum payment before a late payment fee is imposed.
(xv) Excess funds means the amount of funds remaining after application of the net savings account funds to the then-outstanding indebtedness.
(xvi) Fees means charges imposed on your account that are not included in the calculation of the Annual Percentage Rate.
(xvii) Indebtedness means all amounts you owe us under this Agreement including, without limitation, all transactions charged to, and not thereafter reversed
from, your account.
(xviii) Index has the meaning set forth in the Disclosure Statement.
(xix) Interest charges means any charges to your account based on the application of the Annual Percentage Rate to the account balance as set forth in the related
documents.
(xx)
Item means a check, draft, money order, or other negotiable instrument (including images of these instruments) you use to make payments on the
indebtedness.
(xxi) Merchants are sellers of goods and/or services who have agreed with a network to accept cards in payment of the purchase price of the goods and/or
services they sell.
(xxii) Minimum payment means the amount so specified in each statement, calculated as set forth in the Disclosure Statement.
(xxiii) New Balance i s the figure that represents the new amount that is owed beginning with the previous balance, all payments and credit that have been
made during the previous 30 day period are subtracted and all purchases, adjustments, cash advances, transfers, finance charges and other applicable
fees that were posted to the account. (The New Balance will become the previous balance on your forthcoming statement.)
(xxiv) Network means Visa lnc., Mastercard International Incorporated, or any other network provider displayed on the card.
(xxv) Person means a human being, a trust, or a legal entity other than you, or us, as the context requires.
(xxvi) PIN means the personal identification number we will give you that allows us to authenticate transactions initiated at ATMs or POSs.
(xxvii) POS means a point-of-sale device at which cards may be used to (A) pay for purchases, and/or (B) obtain cash.
(xxviii) Purchases means those transactions in which you acquire goods and services from merchants from time to time by using the card.

(i)
(ii)

8

Revised as of 1-01-2021

(xxix) Related documents means the following documents: the correspondence we send you confirming that your application has been approved; (A) the
(xxx)
(xxxi)
(xxxii)
(xxxiii)
(xxxiv)

correspondence we send you confirming that your application has been approved; (B) the Disclosure Statement; (C) the most-current version of the card
benefits brochure, which describes benefits provided by the network for the card and your account.
Savings account funds means the collected balance in the savings account (together with all accrued and payable interest thereon).
Savings account means the Credit Builder Savings account opened with to serve as the pledged collateral.
Statement means a document or information we make available to you showing account information including, among other things: (A) transactions made
to your account during a billing cycle, (B) the minimum payment, and (C) other information required by applicable law.
Transaction means each transfer, purchase, and cash advance.
Transfers means balances transferred from other accounts to the account.
© Armed Forces Bank, N.A.
All rights reserved.
Published as of 1-1-2021

9

Revised as of 1-01-2021

